No. 19-

Hun the Supreme Court of the United States

MARK CHAPMAN et al,
Petitioners,

v.
ACE AMERICAN INSURANCE COMPANY,
Respondent.
On Petition for a Writ of Certiorari to the United States Court of Appeals for the
Federal Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari contains 7,411 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 25, 2019.

 

5601 Mariner St., Ste. 400
Tampa, Florida 33609
Tel: (813) 281-9000
jmagri@merklemagri.com

Subscribed and sworn before me this 25th day of November, 2019.
lam authorized under the laws of the State of Florida to administer oaths.

ANGELAS.MERKLE tsi erkeba—

MY COMMISSION # GG 196352
EXPIRES: September 4, 2021 (Notagy)

 
